                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 112020006                                                                    Page 1 of 1



         NSF OIG opened this investigation based on information that equipment1 was stolen from a
         NSF-supported research facility 2 o,perated by a University. 3 The facility manager reported the
         theft to the local sheriffs office. A detective from the local sheriffs office conducted an
         investigation and determined that a former employee 5 of the facility had stolen the equipment.

         A local prosecutor handled the matter in state court. 6 The former employee pled "no contest" to
         two counts of Simple Burglary and one count of Theft of $1,500 or more. He was found guilty
         and sentenced to 10 years confinement (suspended), 5 years of probation, and ordered to pay
         restitution7 to the University.

         Based upon NSF OIG's recommendation, NSF debarred the individual for three years.

         No further investigative activity is warranted. This investigation is closed.




NSF OIG Form 2 (11102)
